, .    " '. \
         ; f





                 Department of Health and Human Servces
                         OFFICE OF
i ­


I -




f ­


                    INSPECTOR GENERAL




                IMPACT OF A LABORATORY ROLL IN
                     MEDICARE EXPENDITURES

                                    A Management Advisory Report




                                  VIC.

                                             Richard P. Kusserow
                                            INSPECfOR GENERA
                       '0



                            .ta            " OEI-05-89-89151
                             ..................................................
                                   .. ... .. ... .... ... .. .. ....... ... ... ... .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ... .. .. ... .. .. .. .
                . . . . . . .. .. ..                                                                                                                       . . .
                                                                                                                                                               . .. .. . ..




                                         TABLE OF CONTENTS

                                                                                                                                                                 PAGE-


Int:aducton
     Purpose                                                                     . . . . . . . . . . . . . . . 1
     Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     Methodology                                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




Findigs
     A laboratory roll in could save Medicare
     over $1 bilion in the fist year and

     more than $12 bilion over
          5 years. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2



     The LRI wi provide suffcient funds for

     physicians to cover costs they incur in

     securing laboratory work. 
                                                                                                                                   . . . 3




Recommendation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Appendices

     Appendix A: Methodology.................................. A-
     Appendix B: Enhancing LRI Success                                                . . . . . . . . . . . . . . . . . . . . . . . . . . B-
     Appendix C:                         Draft Report Comments and OIG Response . . . . . . . . . . . C -
                               , "




                               INTRODUCTION

PUROSE

To examie the potential  fiancial impact of including payment for laboratory servces

in Medicare s recognized chaige for physician office visits.


BACKGROUN
Recently, the Offce of Inspector General (OIG) issued a monograph which examined
the forces that affect use of laboratory servces. That monograph concluded that
Medicare s efforts to contain escalating laboratory costs have not succeeded in
controllng growth in expenditures because they did not address use of servces.

Our recent study entitled Ensuring Appropriate Use of Laboratory Servces: A
Monograph" proposed that Medicare roll reimbursement for laboratory servces into the
recognized charge for physician office visits. This bundling approach , called a laboratory
roll in (LRI), appears to be a promising option which would contain rising laboratory
costs. The report also suggests that a LRI, like Diagnosis Related Groups , can produce
significant savigs without compromising the quality of patient care.

MEODOLOGY

To ilustrate the effects of a LRI, we used 1988 Part B Medicare Annual Data (BMA)

and:


               calculated a LRI by distributing allowed laboratory "amounts across allowed
               physician office visits;

               distributed servces and allowed amounts biled by pathologists , osteopathic
               (DO) pathologists and independent cliical laboratories to all other
               physician specialties based on the proportion of servces each specialty
               ordered from these outside sources;

              compared average payment for laboratory servces per office visit under
              fee-for-servce (FFS) with the amount that would have been paid under a
              LRI;

              calculated coinsurance and administrative savings; and

              conducted an           analysis of individual laboratory use within physician
              specialties.

A detailed discussiori'  our methodology and analysis
                          of                                     which has led to the   information
contained in this report can be found in Appendix A.
                                 FINDINGS

Rnding #1: A LRI could save Medicae over         $1 billon in the firs year and more
              than $12 billon over 5 year.


Implementation of the LRI in 1992 would produce first year savigs of at least
$1.1 bilon. At least $980 millon of the savigs would be realied from patient
coinsurance. Admstrative savigs would tealize an additional $143 milion. Table 1
ilustrates savings from coinsurance , lower administrative costs and controlled growth in
expenditures. The table shows that over 5 years cumulative savings could exceed
$12 bilion.




With a LRI, the policies controllng physician offce visits will also constrain the
growth of laboratory expenditures. Future updates to the LRI would be a part of
the fee schedule amounts for physician offce visits. As an indistinguishable part of
the offce visit , future price increases for laboratory servces would be held to the
growth rate for physician   servces which is lower than the projected growth rate   for
laboratory servces.
,-_ .
.




        Table 1 ,   on the previous page , shows projected expenditures under the current FFS
        system using current average growth of 19 percent annually. Estimates of      anticipated
        laboratory expenditures after the LRI reflect an annual growth rate of 10 percent.        ­
        The 10 percent growth rate is based on projected annual growth in physician
        payments under the new resource based relative value scale. The actual rates put
        forth by the Secretary in future years may differ from our estimates.

        Physician payment reforms require the updating     of relative values for physician
        servces at least every 5 years. New technologies and other factors that might
        increase or decrease the cost of securing laboratory work would be considered at
        that time.





        Findig #2: The      LR wi provde suffcient fuds for physician to coer costs they
                        incu in secug laboratory work.


        This proposal would require physicians to pay for the clinical laboratory work they
        order for their patients. Medicare would no longer pay each individual entity
        performing tests ordered by a physician. The money Medicare spends under the
        FFS system would be distributed to physicians as an indistinguishable part of the
        recognized charge for physician office visits. The physician , rather than Medicare
        would be responsible for paying any outside provider of laboratory servces.

        Analysis of the 1988   BMA shows that the LRI would provide adequate funds to
        cover expenses    physicians incur in securing laboratory work. On average , 77 percent
        of the physicians biling   Medicare are likely to have more than suffcient funds to
        cover the costs they incur in securing laboratory work. Only atyical users of
        laboratory servces are likely to experience difficulty in covering their costs.
        detailed description of our methodology and the results of our analysis of the LRI's
        impact can be found in Appendix A
                 RECOMMENDA TIONS

Th   HCF A shoul research and deelop th LR reiurem mechani for
laboratory sc.7Ves, and propoe   lelatin to   implem it wihi     years.

In developing the LRI, HCF A will need to address a number of issues. Our analysis
suggests that the LRI can only be effective in reducing costs if calculated using all
Part B outpatient data , including hospital outpatient laboratory payment data and
hospital outpatient visit data. We also believe the calculation should exclude
laboratory procedures listed in the Federal Register as physician servces. All other
clinical laboratory servces should be included in the LRI. We believe no entities
providing outpatient laboratory servces should be allowed to bil for servces outside
the LRI. Failure to include these safeguards could result in manipulation of the
system and failure to achieve savings. Appendix B discusses enhancements which we
feel would ensure the LRI success.
Comments on the Draf Report

Both the Assistant Secretary for Planning and Evaluation (ASPE) and HCFA
commented on our draft management advisory report. The ASPE concurred with
our recommendation but believes studies should be und rtaken to ensure that patient
case mi does not adversely affect physician specialists. The HCF A cited several
reasons for not concurrng with our recommendation.

We regret that HCFA is not inclined to research and develop the LRI. We believe
it is a viable concept , one that will control escalating laboratory expenditures. We
believe additional study is needed before considering implementation and therefore
continue to urge HCF A to study and explore its possibilties.

The complete text of ASPE' s and HCF A' s comments and our specific responses are
contained in Appendix C. 

;.­
.--
.( .­





f:




1.



1­




I.
         APPENDIX A

f -.
          MEODOWGY
                            GENRA INORMTION

To determine the effects that a LRI might have , we analyzed HCF A' s 1988 BMA
fie. We did not analyze "local laboratory codes" in the BMA file. These codes
are unique to individual Medicare carrers. Their volume and dollar value are low.
We also used a subsample of the 1 percent BMA file to evaluate the effects of a
LRI on physicians ' income and to make comparisons with the current FFS system.

The following procedure codes in BMA were used to calculate a hypothetical LRI
for 1988.



             80000 - 89999 Laboratory procedures
             90000 - 90099 Office visits

             90100 - 90199 Home visits

             90600 - 90699 Consultations

The following is a table of BMA    procedure codes which were not used in our   LRI
calculations. Our rational for not using them in our LRI calculations is also
provided.




                                            A ­

 '.
,.. .,
     .




         Volume and dollar values for hospital outpatient laboratory procedures and
         outpatient clinic visits are not contained in the BMA      fie, and therefore, were not
         included in our analysis. Past studies ,   conducted by the OIG, indicate that hospital ­
         outpatient laboratories provide approximately 25 percent of all Medicare laboratory
         servces. 7ls is a significant share of total outpatient laboratory servces provided to
         patients. For this reason ,   and other reasons mentioned in our monograph , they
         should not be excluded from the LRI.




L,




                                                      A ­

,­




                                      LR CALTIONS

     A LRI is computed by dividing total Part B outpatient expenditures for laboratory
     tests by the total number of paid physician outpatient offce visits in a given year.
     results in the same level of aggegate payments as would' be made under the FFS
     system in that year.

     To ilustrate how a LRI might be calculated , we used the 1988 BMA fie and
     redistributed the $1.84 bilion Medicare allowed for laboratory servces across paid

                                                              visits).
     physician offce visits. Ths calculation resulted in a base LRI of $13. 50 per offce
     visit ($1.84 bilion Medicare allowed/1.37 milion offce

     To determine the potential impact on physician specialties , we compared the $13.
     LRI with each specialty s average reimbursement for laboratory servces under the
     FFS system. To do this , we created a subs ample from the BMA consisting patients
     who were seen by a single physician in 1988. This enabled us to obtain a complete
     picture of all laboratory servces a patient received, no matter who biled. Using the
     subsample we calculated the number of physician offce laboratory servces provided
     in-house by each specialty to each patient. We also calculated the number of
     servces each specialty ordered from an outside source. Allowed amounts and
     servce volume for clinical laboratory servces biled by pathologists, osteopathic (DO)
     pathologists and nonphysician specialties such as independent clinical laboratories
     were distributed to all physician specialties based on the proportion of servces each
     physician specialty ordered from an outside source. The same method was used to
     redistribute the allowed dollar value of tests.

     We calculated the weighted average for offce visits in the 1 percent BMA sample
     and in our subsample of patients who were seen by a single physician. We did this
     to determine whether the subs ample ,  on which the distribution was based , differed
     from significantly from the 1 percent BMA from which it was drawn. The
     weighted average for offce visits in the 1 percent BMA was 3. 33 versus 3. 51 in the
     subsample. The slight difference between the two numbers shows that the subs ample
     on which our distribution was based is reflective of the whole sample.

     The financial impact that a $13. 50 base LRI would have on physicians is shown in
     Table 1 on the following page. The last column in each table indicates whether , on
     average , the physicians in each specialty are likely to be paid more or less than they
     were under the FFS system.




                                               A ­

!,. .-.
:-        ----------                                                         -----------

                                                                                              Table 1


I;
I ­
                                                           Effect of $13.   50 base LRI on Physician Specialties

                                                                                                     FF Data
                                                      Total       Avg. OV            Total!              Averag      Total!         Average
                                                      Offce       Per Bene           Lab                 Lab Svcs.   Paid           Lab Paid/V   +/- 2
          Speialties                                  Visits                         Servce              Per VISit   For Lab        Under
          01 General Practice                         164397                         171047              1.04        $1, 99,179     $1213

          02 General Surgery                           59213      225                 44058                          $ 68 192       $11.

          03 Alergy                                     4873                           1993              0.41                603    $ 5.

          04 ENT                                       30316      1.75                 9109              0.3             156 879    $ 5.

          05 Anesthesiology                             1720      204                 148                                 17,574    $10.

          06 Cardiovasular Disse                       68718      282                61454                           $ 770 907      $11.

          07 Dermatology                              3109        205                19163                           $ 476 851      $15.

          08 Family Practice                          2033692                        2498                1.22           969 973     $14.58

          09 Gyneclogy (DO Only)                         158  1.93                     121                                          $10.

          10 Gastroenterology                          19166  204                    2024                            $ 279 981      $14.

          11 Internal Medicine                        414798                         581949              1.40        $6,   411      $16.

          12 Manipulative Therapy (DO)                  2719                           2775              1.02           32,614      $11.

          13 Neurology                                 20595                          10206                          $ 143,30       $ 6.

          14 Neurological Surger                        4734  1.61                     1628              0.3                  450   $ 4.32

          15 Obstetrics                                                                                                             $ 1.44

          16 OB-Gyecology                             15791       1.9                14780                           $ 162 037      $10.

          17 EENT (DO only)                             776       1.69                829                1.07              011      $1290

          18 Ophthalmology                            51108       1.87               19544                           $ 259 173      $ 5.

          19 Oral Surgery                               490       1.49                467                                 965       $18.

          20 Orthopedic Surgery                       44331       210                1363                              198, 422     $ 4.

          23 Peripheral Vasular (DO)                              2.5                  145               0.40              162      $ 8.

          24 Plastic Surgery                           3185       1.64                2035                                 851      $17.

          25 Physical Medicine                         4545       211                 1212                                 235      $ 4.

          26 Psychiatry                                5171       224                 5731               1.1               640      $15.

          28 Proctology                                1195       1.56                 696                                 621      $ 7.

          29 Pulmonary Disea                          18896       279                14146                           $ 194 073      $10.

          30 Radiology                                 5403       1.71                2810               0.52           39,3        $ 7.

          31 Radiology (DO)                             394                           123                                12,169     $30.

             Radiation Therapy                          221       1.44                 158                                 907      $ 8.

          33 Thoracic Surgery                          6529       1.64                285                0.43               938     $ 6.

          34 Urology                                  42338                          638                 1.51        $ 618, 795     $14.

          36 Nuclear Medicine                           157       1.91                 147                                 422      $28.

          37 Pediatrics                                2820                           292                1.04               838     $12.5

          38 Geriatrics                                 429                                              1.4              832       $13.

          39 Nephrology                                802                           10162               1.26          126,568      $15.

          40 Hand Surgery                               240       1.95                                   0.3             1,2        $ 5.

          41 Optometry                                 4085                           2242               0.55              757      $ 7.

          48 Podiatry                                 28746                          13134                             173 675      $ 6.

          49 Misc. Physician                           1779      296                  4568               257               513      $45.

          70 Clinic or Group Practice                 91362                          12352               1.3           706 841      $18.

li"	      88 Unknown                                             222                                     1.3                        $ 6.
          99 Unknown Physician                          259      2.5                  1122                              15,597      $60.

          Source:         One percent sample of the            1988      BMA files

L ! 

             Includes laboratory services billed by non-physiciin speciilties such as inependent clinical laboratori which were ditruted
             among the physician speciilties. This was done because only physiciins are reimbursed using LRI
             This column represents whether a physiciin specialty, on average, would be paid more or less under LRI. than under the fee-for­
             service system.





                                                                                              A ­

,,­





                          ANALYSIS OF TI          LRS FIANCIA IMACf

                              ON SELCID          PHYSICI SPECIATI.


I:
        The graphs on the following pages show the effects of the LRI on selected physician
        specialties. We selected these nine specialties for this report because , as a group,
        each of these specialties appears to be paid less under the LRI than they were under
        the FFS system , and each specialty had at least 50 practitioners in our subsample.
I.      Detailed analysis shows that although each specialty as a whole appears to be paid
l.      less under the LRI, the majority of individual physicians within the specialty will
        actually benefit from the LRI.
t ..

        Graphs A through I were prepared from our subsample of the 1         percent 1988
        BMA fie. The subs ample, as previously mentioned , consisted of beneficiaries who
        saw only one physician in 1988. Using the subsample gave us a complete picture of
        all laboratory servces a patient received , no matter who biled. Because each
        patient was seen by a single physician we were able to group physicians by their
        respective specialties.
t­

        Within each  specialty, we categorized physicians by how many laboratory servces
i ­

        each ordered , on average , per offce visit. For the physicians in each category, we
        divided the total amount Medicare paid them for laboratory servces by the total
r­      number of office visits they biled , to obtain the average laboratory reimbursement
        for each category.



        The graphs , and the tables which accompany them , show the LRI's effect on
                                                They show that the majority of physicians in
        individual physicians within a specialty.
        each specialty would have more than adequate funds to cover expenses incurred in
        securig laboratory work. On average, 77 percent of the physicians biling Medicare
        are likely to have more than suffcient funds to cover the costs they incur in securing
        laboratory work. Only atyical users of laboratory servces are likely to experience
        difficulty in covering their costs.

        The data for Specialty     Internal Medicine , will ilustrate our analysis and how to
                                  11 ,
        read the graphs on the following pages. As mentioned earlier we calculated a LRI
        of $13.50 for 1988. This means that $13. 50 would be added to the Medicare
        recognized charge for every offce visit biled by physicians. The data on Table 1 of
        Appendix A indicated that internists charge on average $14. 61 per offce visit for
        laboratory servces. Because the LRI wduld pay only $13. , it appears that
        physicians specializing in Internal   Medicine would lose $1.10 on each offce visit
        biled.




                                                    A ­

'- --,	
.
(                                                                                          , ­





          When individual use of laboratory servces under the FFS system is examined more
          closely (Graph D and the accompanying table), it shows that the average Medicare
          payment was less than $13.50 for at least 71 percent of the internists. On average
          36 percent were paid $2. 51 and 35 percent were paid $9. 63. Under the LRI, 71
          percent of internists are likely to receive more money than they did under FFS
I :	      system. The graph also shows that less than 1 percent of internists provide , on
          average , 11 or more laboratory servces per office visit at an average cost to
          Medicare of $198.
f ­





i .





f.




"'h




                                                 A ­

.-                   ------------------------------------------------
                                        --


                                                      GRAH A

                                    AVERAGE LABORATORY PAYMENT

                                SPECIALTY 7: DERMTOLOGY   N = 1104

     (PARTIAL GRAPH)

                  OF PRACTITION	                                                       AVG PAID PER OFFICE VISIT

           60X	                                                                                                     5250

                                                                                                                    5225
           SOX
                                   AT LEAST 57% ARE PAID tlORE UNDER THE LRI
                                                                                                                    $200

                                                                                                                    $175
           40X

                                                                                                                    $150

                                                                                                                    S125


                                                                                                                    S100
           20X
                                                                                                                    S75


                                                                                                                    S50
           lOX

                                                                                                                    S25



                                                                                                        11+
                                    AVERAGE NUMBER OF LABORATORY SERVICES PER OFFICE VISIT

                             OF PRACTITI01!ERS             AVERAGE PAID             AVG PAID 11+ SVCS

     19BB BMAD SUBSAMPLE





                                                 TABLE OF DATA

                     AVERAGE SERVICES                SUBSAMPLE              % OF
             AVERAGE

                     PER OFFICE VISIT                FREQUENCY            SPECIALTY             PAID

                                                                 627          56.               $2.
                                                                 279          25.              $19.
                                                                                               $42.
                                                                                               $51. 76

                                                                                               $71. 90

                                                                                               $81. 27

                                                                                              $75.
                                                                                              $79.
                                                                                             $159.
                                                                                              $87.
                                                                                               $91. 56

                            11+
                                                1.8%         $222.




                                                          A ­

      ------------------- -------------
                                 -+     -------------------


                                                 GRAH B

                              AVERAGE LABORATORY PAYMENT

                       SPECIALTY 8: FAMILY PRACTICE , N =                               374

(PARTIAL GRAH)
            Of PRACTITIONERS                                                     AVG PAID PER OFFICE VISIT

      45"                                                                                                     5200

      40"
                       AT LEAST 79% ARE PAID tlORE UNDER THE LRI
                                                                                                              5175

      35%
                                                                                                              $150

      30%
                                                                                                              5125
      25%

                                                                                                              $100
      20%

                                                                                                          575
      15"

                                                                                                          '50
      10"

                                                                                                          525




                                                                                                11+
                               AVERAGE NUnBER OF LABORATORY SERVICES PER OFfICE VISIT

                          Of PRACTITIONERS               AVG PAID          AVG PAID 11+ SVCS

198B BnAD SUBSAnPLE





                                             TABLE OF DATA

      AVERAGE SERVICES                       SUBSAMLE           % OF               AVERAGE
      PER OFFICE VISIT                       FREQUENCY        SPECIALTY                 PAID
                                                  4454               42.             $2.
                                                  3761               36.             $8.
                                                  1212               11. 7%         $18.
                                                   455                              $30.
                                                   219                              $41.
                                                   103                              $49.
                                                                                    $69.
                                                                                    $73.
                                                                                    $89.
                                                                                    $91.
                                                                                    $91.
                 11+                                                               $161.
            -"
       ---------------------------------------------------
                               --


                                                            GRAH C

                                        AVERAGE LABORATORY PAYMENT

                         SPECIALTY 10: GASTROENTEROLOGY 
                                  = 692

(PARTIAL GRAPH)

             x OF PRACTITIONERS
                                                           AVG PAID PER OFFICE VISIT

      4011                                                                                                              $300

                   AT LEA5T 64% ARE PAID tiORE UNDER THE LRI                                                            $275
      3511

                                                                                                                        $250

      3011                                                                                                              5225

                                                                                                                        $200
      2511

                                                                                                                        5175

      20X                                                                                                               5150

                                                                                                                        5125
      1511

                                                                                                                    $100

      1011                                                                                                          375

                                                                                                                    $50
       511

                                                                                                                    $25

       011

                                                                                                           11+
                                    AVERAGE NUtlER OF LABORATORY SERVICES PER OFFICE VISIT

                          OF PRACTITIONERS                     AVERAGE PAID         '* AVG PAID 11+ SVCS

1988 BtlAD SUBSAtlPLE





                                                     TABLE OF DATA

       AVERAGE SERVICES                              SUBSAMPLE           % OF
             AVERAGE
       PER OFFICE VISIT                              FREQUENCY         SPECIALTY              PAID
                                                            252               36.              $2.
                                                            189               27.             $12.
                                                                              13.             $23.
                                                                                              $44.
                                                                                              $45.
                                                                                              $58.
                                                                               1.6%           $60.
                                                                               1.4%           $80.
                                                                                             $152.
                                                                                             $137.
                                                                               1.2%          $102.
                    11+
                                                                     $244.




                                                             A ­

      ---------------------- -----------------------------


                                                   GRAH D

                            AVERAGE LABORATORY PAYMENT

                   SPECIALTY 11: INTERNAL MEDICINE, N =                                    145

(PARTIAL GR PH)
            x OF PRACTITIONERS                                                     AVG PAID PER OFFICE VISIT

      40"                                                                                                       $250

                                                                                                                5225
      35"

                                                                                                                $200
      3D"
                                                                                                                $175
                             AT LEAST 71% ARE PAID tlORE UNDER THE LRI
      25"
                                                                                                                $150

      20X                                                                                                       5125

                                                                                                                SlOO
      15"

                                                                                                                575
      10"
                                                                                                                550


                                                                                                                525



                                                                                                  11+
                                 AVERAGE NUMBER OF LABORATORY SERVICES PER OFFICE VISIT


                         % PRACTITIONERS              AVERAGE PAID        '* AVG PAID 11+ SVCS


1988 BMAD SUBSAMPLE





                                             TABLE OF DATA

      AVERAGE SERVICES                       SUBSAMPLE                               AVERAGE

      PER OFFICE VISIT                       FREQUENCY          SPECIALTY              PAID


                                                    5814               36.              $2.

                                                    5627               34.              $9.

                                                    2372               14. 7 %         $19.

                                                    1039                               $30.

                                                     556                               $42.

                                                     273                 1. 7%         $55.

                                                     156                 1. 0%         $61.

                                                                                       $78.

                                                                                       $85.

                                                                                       $97.

                                                                                      $106.

                   11+                                                                $198.





                                                      A­
!. -
   -               -"
              ---------------------------------------------------
                                      -+



                                                          GRAH E
                                          AVERAGE LABORATORY PAYMENT

                               SPECIALTY 24: PLASTIC SURGERY , N = 171

       (PARTIAL GRAPH)

                   x OF PRACTITIONERS                                                     AVG PAID PER OFFICE VISIT

             45X                                                                                                       $350


             40X
                                    AT LEAST 43% ARE PAID tlORE UNDER THE LRI                                          $300

             35X

                                                                                                                       $250
             30%



             25%
                                                                                                                       $200


             20X
                                                                                                                       $150

             15%
                                                                                                                       $100
             10%

                                                                                                                       $50




                                                                                                          15+
                                        AVERAGE NUnBER OF LABORATORY SERVICES PER OFFICE VISIT


                                OF PRACTITIONERS               AVERAGE PAID           AVG PAID 15+ SVCS

       1968 BtlAD SUBSAtlLE



                                                    TABIE OF DATA

             AVERAGE SERVICES                       SUBSAMLE                                AVERAGE

              PER OFFICE VISIT                      FREQUENCY          SPECIALTY              PAID

                                                                               43.             $2.
                                                                               28.            $35.
                                                                               12. 3 %        $45.

                                                                                              $85.

                                                                                              $93.

                                                                                              $59.

                                                                                1.2%         $116.

                                                                                1.2%          $80.

                                                                                             $115.

                          15+                                                   1.8%         $302.

       (There were                 observations between                       and        in the      subsample.




                                                             A ­

      ---------------------------------------------------
                              --


                                                    GRAH F
                                AVERAGE LABORATORY PAYMENT

                             SPECIALTY 26: PSYCHIATRY , N = 277


(PARTIAL GRAPH)

            OF PRACTITIONERS                                                         AVG PAID PER OFFICE VrSIT

                                                                                                                  $200

      60"

                             AT LEAST 70% ARE PAID tlORE UNDER THE LRI                                            $175


                                                                                                                  $150


      40%                                                                                                     $125


                                                                                                              5100


                                                                                                              575
      20%

                                                                                                              550

      10"
                                                                                                              525




                                                                                                     11+
                                AVERAGE NU    ER OF LABORATORY SERVICES PER OFFICE VISIT

                       " OF PRACTITIONERS                AVERAGE PAID            AVG PAID 11+ SVCS

19BB BnAD SUBSAnPLE





                                             TABLE OF DATA

    AVERAGE SERVICES                         SUBSAMPLE            % OF               AVERAGE

     PER OFFICE VISIT                         FREQUENCY          SPECIALTY                 PAID

                                                      167               60.                 $0.
                                                                        10.                 $9.
                                                                                           $32.
                                                                                           $40.
                                                                          1.8%             $54.
                                                                                           $82.
                                                                                           $71. 13
                                                                          1.4%         $116.
                                                                                        $66.
                                                                          1.1%         $113.
                                                                                       $lC9.
                 11+                                                                   $191. 78




                                                       A­
                                                     --
      ------------------------------------------- --------




                                                     GRAH G

                                 AVERAGE LABORATORY PAYMENT
                              SPECIALTY 34: UROLOGY, N = 1 , 346
(PARTIAL GRAH)
             x OF PRACTITIONERS	                                                      AVG PAID PER OFFICE 
     VISTT
      55X
                                                                                                              $250

      sox
                                                                                                              $225

      45X

                                   AT LEAST 70% ARE PAID tiGRE UNDER THE LRI .                                          $200
      40"

                                                                                                                        5175
      35"

                                                                                                                        S1S0
      30"

                                                                                                                        5125
      25"

                                                                                                                        5100
      20"


                                                                                                                        575
      15"


      10"
                                                                                                              550


                                                                                                                        525



                                                                                                          11+
                                   AVERAGE NUnBER OF LABORATORY SERVICES PER OFFICE VISIT

                       " OF PRACTITIONERS                 AVERAGE PAID            AVG PAID 11+ SVCS

1988 BnAD SUBSAnPLE





                                               TABLE OF DATA

      AVERAGE SERVICES                        SUBSAMPLE             % OF                AVERAGE
      PER OFFICE VISIT                        FREQUENCY           SPECIALTY                 PAID
                                                       243               18.              $2.
                                                       696               51. 7%	         $11.
                                                       220               16.	            $20.
                                                                                         $32.
                                                                                         $41.93
                                                                           1.2%          $59.

                                                                                         $64.

                                                                                         $76.

                                                                                         $73.

                                                                                        $110.

                                                                                        $106.
                    11+                                                                 $ 2 25. 7 1




                                                        A­
'..,..         ---------------------------------------------------
                    --"


                                                           GRAH H

                                       AVERAGE LABORATORY PAYMENT

                                    SPECIALTY 39: NEPHROLOGY, N = 268

         (PARTIAL GRA

                      OF PRACTITIONERS                                                     AVG PAID PER OFFICE VISIT

                                                                                                                        5500

                                                                                                                        5450
               3510


                                                                                                                        5400
               30"
                                     AT LEAST 70% ARE PAID tiGRE UNDER THE LRI
                                                                                                                        5350

               25"
                                                                                                                        5300


                                                                                                                    5250
I. ..
                                                                                                                    5200
               15"

I,                                                                                                                  5150
               10"
                                                                                                                    5100

                510
                                                                                                                    550



                                                                                                           11+
I-                                       AVERAGE NUMBER OF LABORATORY SERVICES PER OFFICE VISIT

                                 OF PRACTITIONERS          -4   AVERAGE PAID        "' AVG PAID 11+ SVCS

         1988 BMAD SUBSAMPLE





                                                     TABLE OF DATA

               AVERAGE SERVICE                      SUBSAMLE              % OF               AVERAGE
               PER OFFICE VISIT                     FREQUENCY           SPECIALTY                 PAID
                                                             101               37.                 $1.
                                                                               32.                 $9.
                                                                               12. 3 %            $25.
                                                                                                  $27.
                                                                                                  $40.
                                                                                 1.9%             $57.
                                                                                                  $58. 74

                                                                                               $95.

                                                                                              $100.

                                                                                              $147.

                                                                                               $99.

                           11+                                                   1. 6%        $475.





                                                              A ­

                                    -; 

           -------------------- -------------------------------
                     --




                                                          GRAH I
                              AVERAGE LABORATORY PAYMENT

ij                  SPECIALTY 70: CLINIC/GROUP PRACTICE, N = 2 233


     (PARTIAL GRAH)
                 OF PRACTITIONERS
                                                        AVG PAID PER OFFICE VISIT

                                                                                                                       $225


                                                                                                                       $200
                                       AT LEAST 82% ARE PAID tlORE UNDER THE LRI
                                                                                                                       5175


                                                                                                                       $150


                                                                                                                       $125


                                                                                                                       $100


                                                                                                                   $75


           10"                                                                                                     550


                                                                                                                   525



                                                                                                          11+
                                       AVERAGE NUnBER OF LABORATORY SERVICES PER OFFICE VISIT


                                OF PRACTITIONERS              AVERAGE PAID            AVG PAID 11+ SVCS

     19BB BnAD SUBSAnPLE





                                                    TABLE OF DATA

         AVERAGE SERVICES                          SUBSAMPLE           % OF               AVERAGE
           PER OFFICE VISIT
                        FREQUENCY         SPECIALTY              PAID
                                                           941               42.             $3.
                                                           870               39.            $10.
                                                           234               10.            $19.
                                                                                            $29.
                                                                                            $35.
                                                                               1.0%         $58.
                                                                                            $71.
                                                                                            $60.
                                                                                           $111. 56
                                                                                            $98.
                                                                                            $98.
                          11+                                                              $216.




                                                            A ­

APPENDIX
ENHCING LR SUCC
"..                                            ". .'
                                               ..
                                               ...
                                                ...
                                               ....
                                              ....",
                                                ...        ......
                                                     ......."
                                                     ." ....
                                                  " ....             ",.."..
                                                                    ...  ....
                                                               ...............
                                                                ....,,'."..
                                                           ..................
                                              ...........,,--............
                                                         '...p-........

                                                           ...            . ...
                                                                             ..




                                       ENHCING LR SUCCE
l :
   In researchig our previous   study, entitled " Ensuring Appropriate Use of Laboratory -
       Servces: A Monograph " we learned the laboratory marketplace is extremely
       adaptable. For nearly 20 years it has demonstrated its abilty to adapt to new laws
       reguations and policies and overcome HCFA' s efiorts to contain costs. We learned
       that a reimbursement mechanism that makes too many exceptions wil increase
       utilization. Therefore , we believe that incorporation of the following elements into
i,     LRI implementation will safeguard the benefits described in the monograph and this
       management advisory report.
r.
i .

                      Th   LR shoul be calcted usg BMA and hoitl                  outti data.
       A LRI is a one- time event. The
       LRI should be calculated from all                   .... on".....
       outpatient laboratory data                              '',n,.....

       including hospital outpatient data.

       Exclusion of any entity providing
r ­

       laboratory servces will encourage
       a shift of laboratory work to
       excluded persons or   businesses.

              On laboratory seres
r ..
              de      in the Federal
              Regter as    physin seres
              shoul be exlu from the

       In 1988 fewer than 1000 different
       laboratory procedure codes were
       used to bil Medicare. Several

       thousand codes were not used.

       Failure to address all laboratory
       servces would in all likelihood
       result in shifts to codes currently

       not in use. Only laboratory

i .

       servces defined in the Federal

       Register as physician servces
       should be excluded from the LRI.
       These excluded servces would be
       paid as physician servces under
       Medicare s resource-based relative value scale (RBRVS). Failure to include all other
       laboratory servces would encourage manipulation of the system.
      All physicin specilties shoul be inclued in   the   LR paynL
In our analysis , we found that only atyical physicians in each specialty would
likely to receive less money under a LRI. The graphs and tables in appendix A
show that the majority of physicians in most specialties would receive more money
under a LRI. Therefore , we do not believe a LRI needs to be adjusted for specialty
differences nor should a specialty be excluded.
       APPENDIX C

DRA REPORT COMMNf AN OIG REPONSE




              C - 1

., .-   "( 	                                                                                              .. ...-j -;:-.
                                                                                                        - -:          :;... -
                                                                                                                      (-;




                 DEPARTMENT OF HEALTH II HUMAN SERVICES	                           Of    of th




                                                                                   W8Ihingon, D. C. 	       201
I: 	                                          FE3 I 2            991


I .	           TO:         Richard P. Kusserow
                           Inspector General                                                                         c.)-­
                                                                                                                     ; q f.
               FROM:       Assistant Secretary for
                           Planning .and Evaluation	                                                               ' :/i; ...1

                                                                                                                             ­
I .

               SUBJECT :   OIG Draft Report:     "Impact of a Laboratory Roll-In

                           Medicare Expenditures" (OEI-OS-89-891S1) -- COMMS

               Thank you for the opportunity to review the subj ect                  report. We
               generally support the concept of "bundling" as a way to encourage
               efficient use of services.  We agree that HCFA should research
i:.	           and develop a reimbursement mechanism for laboratory services
               based on bundling to replace the laboratory fee schedule.
               We believe that two major issues that are not addressed in the
               draft report must be resolved before bundling can be considered
               to be a viable alternative reimbursement mechanism. First, the
               issue of case-mix complexity. Graphs A through I show that, for
               the specialties examined, only a relatively small proportion of
               physicians order a large numer of tests per visit. However, the
               analysis does not examine the differences in case-mix across
               physicians to evaluate how the severity of patient illness (e.g.,
               tes   s.
               co-morbidities, nonspecific etiologies) affects utilization of
                       The second issue is that, while many of the most common
               tests can be obtained at fairly low prices, many special tests
               are unavoidably more expensive. . For example, the report does not
               examine differences in prices by the clinical performance
               characteristics of tests. Under the approach advocated by the
               report, physicians would be financially penalized for adopting
               more diagnostically specific tests, since such tests are often
               more expensive than a standard test, especially when first
               introduced.
               In order for a bundling strategy to be effective, it must be

               sensitive to the circumstances under which laboratory services

               are appropriately required. While we agree with the implicit

               premise of the report that a simple approach is more desirable

               than an overly complex one, we believe that a flat add-on for all

               laboratory services regardless of case-mix and technolog would

               be inadequate.





                                          Mart ' H            Gerr
                                                   C-2
               DEPARTMENT OF HEALTH &. HUMAN SE	                                               Health Care
                                                          :' Ie
        YICF.	                 Financing Administration
                                             I....    .;I.	    I..    .. I. 1:
01''''N


               APR I 5 199/
                                                                   Memorandum
   Date

              Gail R. Wilensky, Ph.   D. 

   From        Administrator


   Subject	    OIG Draft Report - " Impact           of a Laboratory Roll In on       Medicare Expenditures:'

               OEI- 05-89- 89151


              The Inspector General
               Office of the Secretary





                   We have reviewed the subject    draft report , which is a follow-up to OIG'
              previous study entitled " Ensuring Appropriate Use of Laboratory Services: A
              Monograph," OEI- 05-89- 89150. Both r ports outline a method for rolling laboratory
              payment into Medicare s recognized charge for a physician offce visit.

                  The report found that a bundling approach , called a laboratory roll- in (LRI).
              could save Medicare over $1 bilion in the fIrst year and more than $12 billion over
              5 years. It also found physicians               would be suffciently paid by the additional funds
              added onto the payment for offce visits (the LRI) to pay for all necessary
              laboratory work ordered for their patients. OIG recommends that HCF A should
              research and develop the LRI payment mechanism for laboratory services, and
              propose legislation to implement it within 2 years.

                  While , in general, we strongly support the concept of bundling related services
              into payment groups, we do not concur with the plan to roll laboratory payment
              into Medicare s recognized charge for a physician offce visit as it is described in the
              report for the reasons described in the attached comments. Our specific comments
              on the report s recommendation are also attached for your consideration.

                  Thank you for the opportunity to review and comment on this draft report.
              Please advise us whether you agree with our position on the report
              recommendations at your earliest convenience.
                                                                                           HHS/OIG
                                                                                       OFFICE OF EVALUATION
              Attachment	                                                             AND INSPECTION - ROV

                                                                                          APR 2 2 1991




                                                                     C - 3

, .




                     Comments of the Health Care FinancinlJ Administration
                   (HCF A) on the OIG Draft Report - " Impact of a Laboratorv
                       Roll In On Medicare Exenditures. " OEI- 05- 89- 89151


       In general. bundling related services into groups for payment purposes can provide
       appropriate incentives for the effcient delivery of servces while ensuring quality of
       care. Bundling payment for laboratory tests into physician offce visits is" an
       interesting idea , but is one that would need extensive research and analysis before it
      could be pursued. HCFA does not concur with GIG' s recommendation for four
       primary reasons: (1) the concept is in conflct with the thrust of all recently
      enacted Medicare legislation that governs Medicare certification of laboratories and
      payment for laboratory services , most notably the Clinical laboratOry Improvement
      Amendments of 1988 (CLIA); (2) the Laboratory Roll In (LRI) concept as
      described in this report has serious conceptual and practical problems; (3)
      enactment of the legislative proposal to reinstate coinsurance on laboratory services
      contained in the FY 1992 President s budget , combined with the administrative
      complexities of the LRI proposal, would virtually eliminate the $1.1 billion annual
      savings estimated by OIG; and (4) it would be diffcult , if not impossible. for HCFA
      to develop laboratory payment reform while implementing Physician Payment
      Reform. Our specific comments follow.

      1. GIG' ssuggested methodology for paying laboratory fees would not be in

         compliance with CLIA or the Omnibus Budget Reconciliation Act of 1989

         (OBRA 89). OBRA 89 cross-references the CLIA statute for Medicare

         payment. Th , the Federal laboratory regulations will be uniform between

         Medicare and CLIA, and both wil be based on        tests performed. A payment
         system based on the   physician offce visit would not identify individual lahoratOry
         test procedures performed. This would make it impossible for Medicare carriers
         to correlate tests performed by the labora!ory with .the laboratory s certific;ltion
         status.

      2. The LRI   plan proposed by OIG advocates the same payment to different kinds
         of physicians. This would result in significant inequities in compensation hecause
         test-orderig practices and the costs of tests tyical to a specialty may differ
         greatly. Even with an adjustment for different specialties, the LRI plan would
         put individual physicians atrisk based on whether their patient mix was sicker
         than average or requift d greater than the average number of clinical lahoratory
         tests. Risk cannot be spread with individual physicians, who are small volume
         providers. as it can with hospitals and HMOs.

      3. Under the LRI system, information on utilization of specific laboratory tests
        would no longer be available. To assure the availability of such information
        would require that an alternative data collection system be developed. Also.


                                              C - 4

. .




       Page 2


          would be difficult fo.r HCF A to determine the future costs oflaboratorv services
          without knowing the costs of laboratory servces to physicians. This in formation
          would most likely have to be provided on the physician s offce visit bill, which
          would adversely affect any administrative savings anticipated.

       4. While lab tests. may represent 25 percent of the carriers ' workload. they are
          usually submitted electronically and are inexpensive to process. Adding
          laboratory tests to doctors ' paper claims will result in a smaller overall claims
          volume , but also in fewer electronic medical claims and a higher administrative
I .	      cost per claim. Assessing the combined effect of these results on administrative
          costs as a whole would require further analysis.

       5. The    report references Blue Cross and Blue Shield Association and the American
                              findings that 20 to 60 percent of clinical laboratory testing
          College of Physicians
          may be unnecessary. The calculation in the report, which arrived at $13. 50 for
          the amount to be added onto a physician office visit, did not take this into
          account.

       6. OIG   calculated that the use of the LRI plan would produce first year savings of
          at least $1.1 billon, and that $980 millon of those savings would be realized
          from patient coinsurance. The FY 1992 President s budget includes a legislative
          proposal to reimpose laboratory coinsurance. If this is enacted , the savings from
          the LRI mechanism would be virtually eliminated.

          After the savings from patient coinsurance have been subtracted, the balance of
          the savings estimated by OIG, $143 milion, was attributed to reductions in
          administrative costs. It is unclear how much, if any, of the administrative savings
          anticipated by OIG could actually be realized because of other factors not taken
          into account in this study. These factors include: the change from electronically
          submitted laboratory claims to additional line items on paper claims; the need
          for a new laboratory certification system under the LRI payment mechanism; the
          possible inflationary effect of potential kickbacks under LRI; and the cost of

          developing and maintaining a new system for collecting laboratory data for
          utilzation and payment purposes.

          In addition, provisions enacted in OBRA 90 have a!=o addressed the concerns
          about rapid inflation in laboratory costs that prompted OIG to recommend an
          LRI payment mechanism. Section 4154(a) of OBRA 90 changes the annual
          update factor for the laboratory fee schedules from the Consumer Price Index
          for All Urban Consumers (which usually runs 4 percent to 5 percent)
          2 percent for FY 1991- 1993. Section 4154(b) of OBRA 90 reduces the national


                                             C-5
  -.   . ,   ,. 



                    Page 3



                       limit for each test , now set at 93 percent of the median of the carrer fee
                       schedule amounts, to 88 percent of the median of the carrier fee schedule
                       amounts, effective January 1, 1991. These provisions should help to serve to
                       control the   groWth of laboratory reimbursements.

                    7. It would be diffcult, if not impossible, for HCF A to develop laboratory payment
                      reform while implementing Physician Payment Reform. The problem is further
                      exacerbated by the demands on HCFA to fully implement other new legislative
                      provisions--notably CLIA and the prohibition on referrals from physicians who
                      have an ownership interest in laboratory entities--which are in conflct with the
                      OIG proposal. Given both the administrative complexity of our responsibilities
                      under current law and changes that will be taking place in payments to
i. ­
                      physicians as a result, this would not appear to be an opportune time to develop
                      or implement a LRI policy.




                                                           C - 6

.,   ,. "





              OIG Response to ASPE and RCF A Comments

              Both the Assistant Secretary for Planning and Evaluation (ASPE) and the Health
              Care Financing Administration (HCFA) commented on our draft Management
              Advisory Report. The ASPE agrees with our recommendations and suggeJts that            the
                                            case-mix among physician practices and the difference
              potential differences in patient
              in prices between " common" and more specialized testing be further explored.

              The HCF A does not concur with our recommendation. Primarily, they feel that the
              LRI: 1) is in conflct with implementation of the Clinical Laboratory Improvement
              Amendments of 1988 (CLIA); 2) will put individual physicians at risk based on the
              complexity of their patient mix; 3) will not save money; and , 4) will be diffcult, if not
              impossible , to develop while implementing Physician Payment Reform.

               We do not believe that the LRI conflcts with CLIA' s implementation. Based on
              HCFA' s comments , it appears that enforcement of CLIA regulations is going to be
             - dependent , in part on Medicare carrer tracking of laboratory and physician billings
              for laboratory servces. HCF A maintains that , under the LRI system , information on
              utilization and specific laboratory tests would no longer be available , makiltg their
             enforcement of CLIA diffcult.

             While discrete Medicare claim information on laboratory use will not be available
             under the LRI, this information does exist in HCFA' s certification and survey process
             and could also be obtained through scientifc sampling. In addition , it has always
             been our belief that reliance on Medicare carrers to scrutinize millons of laboratory
             claim line items is an arduous and costly task.

             We would also point out that approximately two out of three laboratories that
             HCF A will be regulating under CLIA do not submit itemized bils to carrers.
             Hospital , nursing home and dentist laboratories are but a few that do not submit
             itemized bils for laboratory servces to Medicare. It would appear that an alternate
             system of enforcement will have to be developed for these laboratories.        This system
             could be adapted for Medicare laboratories , thus removing the need for carrier data
             on laboratory servces.

             The HCF A and ASPE believe that the LRI might put individual physicians at risk
             based on their patient case mix. We considered this issue during the development of
             the LRI and found little evidence to support the patient case mix theory. All of the
             literature we located and our research appear to indicate that individual physician
             case mix does not account for differences in the use of servces. Our work on
             patient case mix was not a rigorous analysis; therefore , we agree with ASPE and
             HCF A that additional study needs   to be done.

             Our analysis of laboratory use by physician specialty indicated that expensive
             laboratory servces which might adversely    affect sO\le physician   specialties have


                                                       C-7
~~~




        already been redefined as physician servces by the Physician Payment Reform
        Commission. On page B- 1 of this report , we recommend these servces be exempt
       from the LRI payment. Because our analysis is preliminary, we agree with both
       HCF A and ASPE that this issue should be studied further.

       Many of HCFA' s specific comments regarding the costs of implementing the LRI
       and the subsequent lack of program savings are predicated on HCF A' s need to
       maintain exhaustive laboratory information to enforce CLIA. This need cannot be
       realistically met under the LRI. As stated previously, we believe there are
       alternatives to maintaining discrete laboratory claim information. Should discrete
       laboratory information be necessary to enforce CLIA the costs of developing and
       maintaining a new system for collecting this data should be offset by the
                                                                                 CLIA user
       fees.

      The HCF A states that a large portion of program savings that would result from the
      LRI come from reinstating co-insurance on laboratory tests. This co-insurance
      proposal is included in the Fiscal Year 1992 President' s Budget. If legislation is
      enacted to reinstate the co- insurance , HCF A believes the savings from the
                                                                                    LRI will
      be virtually eliminated. The HCFA' s analysis of potential savings is incomplete and
      fails to take into consideration the full scope and sources of savings under the LRI.
      As shown on page 2 of this report , we calculated no program savings for 1992
      because our formula is budget neutral for the year of implementation. However
                                                                                         , in
      the four succeeding years , savings of $5 bilion could be realized.
                                                                          This is in addition
      to the administrative and co- insurance savings.

      Finally, HCFA believes that it would be difficult , if not impossible , to develop
      laboratory payment reform while implementing Physician Payment Reform and
                                                                                         other
      laboratory initiatives , such as CLIA and the prohibition on laboratory referrals from
      physician who have ownership interests.

      We appreciate the enormous responsibilties and administrative complexities facing
      HCF A at   this time. However, we do not believe that researching the LRI would
      interfere with . current HCF A initiatives. Once implemented , the management of the
      LRI is compatible with the methodologies HCFA will need to employ to update the
      relative values required for physician payment under RBRVS. Relative values for
      physician servces are to be updated at least every 5 years. Under the LRI
                                                                                     , the cost
      of securing laboratory work would be considered practice overhead cost.
                                                                                   When the
      relative values for a physician specialty are adjusted , these overhead costs would be
      taken into consideration and any inequities in the LRI adjusted at that time.

      We believe the LRI is a viable concept for controllng laboratory      expenditures and
      thus continue to recommend that HCFA research and develop it.




                                                C - 8

